APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2447
Brad S. Francis and Christine C. Francis
Appellants
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
(009801-16)
MANDATE
In accordance with the opinion and judgment of
05/09/2019, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is
hereby issued in the above-styled matter.
July 15, 2019
Clerk, U.S. Court of Appeals, Eighth Circuit.

la

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-2447

Brad S. Francis and Christine C. Francis
Appellants
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
(009801-16)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
July 08, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

2a

APPENDIX C

Untteb States Court of glppeate
for tfje Cigfjtf) Circuit
No. 18-2447

Brad S. Francis; Christine C. Francis
Appellants
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
Submitted: May 6, 2019
Filed: May 9, 2019
[Unpublished]
Before COLLOTON, BOWMAN, and SHEPHERD,
Circuit Judges.

PER CURIAM.
Brad and Christine Francis appeal from the
tax court’s1 dismissal—for lack of prosecution—of
1 The Honorable L. Paige Marvel, Chief Judge, United States Tax Court.

3a

their challenge to the Commissioner of Internal
Revenue’s notice asserting an income deficiency for
2013. Following a careful review, we conclude that
the tax court had jurisdiction over the case, see
Walters v. United States. 474F.3d 1137, 1139 (8th
Circuit 2007) (lower court’s determination of
jurisdiction is reviewed de novo); and did not abuse
its discretion by dismissing the case for lack of
prosecution, see Long v. Comm’r. 742 F. 2d 1141,
1143 (8th Cir. 1984) (per curiam) (tax court’s
dismissal for failure to prosecute is reviewed for
abuse of discretion). Accordingly, we affirm. See 8th
Cir. R. 47B.

-2-

2 of 3
Appellate Case: 18-2447 Page: 2 Date Filed:
05/09/2019 Entry ID: 4785786

4a

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-2447

Brad S. Francis; Christine C. Francis
Appellants
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
(009801-16)
JUDGMENT
Before COLLOTON, BOWMAN, and SHEPHERD, Circuit
Judges.
This appeal from the United States Tax Court was
submitted on the record of the tax court and briefs of the
parties.
After consideration, it is hereby ordered and
adjudged that the judgment of the tax court in this cause
is affirmed in accordance with the opinion of this Court.
May 09, 2019
Order Entered in Accordance with Opinion:
Clerk. U.S. Court of Appeals. Eighth Circuit.

5a

/s/ Michael E. Gans
APPENDIX E
474 F.3d 1137 (2007)
Estate of Delores WALTERS; Tanya Ward; Paddy
Aungie; Melanie Traversie; Dion Hall; Brady Hall,
Appellants,
v.
UNITED STATES of America, acting through the
Bureau of Indian Affairs, Department of Safety,
Appellee.
No. 06-2705.
United States Court of Appeals, Eighth Circuit.
Submitted: December 13, 2006.
Filed: January 29, 2007.
1138*1138 Lee C. McCarren, argued, Pierre, SD, for
Appellant.
Mark E. Salter, argued, Asst. U.S. Attorney, Sioux
Falls, SD, for Appellee.
Before BYE, COLLOTON, and BENTON, Circuit
Judges.
BYE, Circuit Judge.
Several parties who suffered injuries on the
Cheyenne River Sioux Indian Reservation in South
Dakota challenge the district court'sbJ determination
that their claims against the Bureau of Indian
Affairs (BIA) were barred by the discretionary

6a

function exception to the Federal Tort Claims Act
(FTCA), 28 U.S.C. §§ 1346, 2671-2680. We affirm.
I
Three separate car accidents occurred between
January 14 and May 6, 2004, on a 14.6 mile stretch
of gravel road designated as BIA Route #3 within the
exterior boundaries of the Cheyenne River Sioux
Indian Reservation. Several people (hereinafter
Walters) were injured in the accidents. They joined
together to bring claims against the United States
(acting through the BIA) under the FTCA alleging
the washboard condition of the gravel road
contributed to their accidents, and the BIA's lack of
regular maintenance was the cause of the washboard
condition.
The United States filed a motion to dismiss
contending the discretionary function exception
barred the suit because, under the circumstances of
this case, maintenance of the road was a
discretionary function. See 28 U.S.C. § 2680(a)
(precluding claims "based upon the exercise or
performance or the failure to exercise or perform a
discretionary function or duty on the part of a federal
agency or an employee of the Government, whether
or not the discretion involved be abused"). After
converting the motion to dismiss into a motion for
summary judgment, the district court granted
summary judgment and dismissed the suit on two
grounds. First, the 1139*1139 district court agreed
the discretionary function exception applied. Second,
the district court sua sponte raised the issue whether
a private party could be held liable for negligent
failure to maintain a road, and concluded the FTCA's
7a

private analogue requirement, see 28 U.S.C. §
1346(b)(1) (authorizing claims only "under
circumstances where the United States, if a private
person, would be liable to the claimant in accordance
with the law of the place where the act or omission
occurred"), barred the suit under the facts and
circumstances of this case. Walters filed a timely
appeal challenging both of the district court's
determinations.
II
We review the district court’s grant of summary
judgment de novo, viewing the record in the light
most favorable to the nonmoving party. Tillery v.
Hoffman Enclosures. Inc.. 280 F.3d 1192. 1196 (8th
Cir.2002). If the FTCA's discretionary function
exception applies, it is a jurisdictional bar to
suit. Dvkstra v. U.S. Bureau ofPrisons. 140 F.3d
791. 795 (8th Cir. 1998). We also review de novo the
district court's determination that it lacks
jurisdiction. Simes v. Huckabee. 354 F.3d 823, 827
(8th Cir.2004).
Walters contends the district court erred in
determining the discretionary function exception
barred this suit because road maintenance is
generally not considered a discretionary function, but
rather a ministerial act performed at the operational
level. See AHA Leisure Servs. v. United States. 831
F.2d 193. 195 (9th Cir.l987)(concluding the
discretionary function exception did not shield the
Park Service from suit for its alleged failure to
maintain a road in compliance with Park Service
standards that required park roads to "conform to
the original grades and alignments" and to be "firm,
8a

[and] of uniform cross section"). Walters likens ARA
Leisure to this case because the applicable regulation
here defined maintenance as "the act of preserving
the entire roadway, including surface, shoulders,
roadsides, structures, and the necessary traffic
control devices as nearly as possible in the as-built
condition and to provide services for the satisfactory
and safe use of such roads." 25 C.F.R. § 170.2(h)
(2004). Walters reasons the "as-built condition" of
BIA Route #3 did not include washboard, meaning
the BIA did not maintain the road in compliance
with the applicable standard, and thus this suit
should be allowed for the same reason suit was
allowed in ARA Leisure.
If § 170.2(h) were the extent of the applicable
regulations, we would agree this case is the same
as ARA Leisure and the discretionary function
exception does not apply. The government, however,
cites another applicable regulation which specifically
requires the BIA to take into account the availability
of funds when deciding the extent to which to
maintain roads. See 25 C.F.R. § 170.6 (2004)
("Subject to the availability of funds, the
Commissioner shall maintain, or cause to be
maintained, those approved roads on the Federal-Aid
Indian Road System.").
Where the applicable statutes, regulations, or
policies allow the government to take budgetary
considerations into account, the discretionary
function exception applies. In National Union Fire
Insurance v. United States. the Ninth Circuit
explained this distinction^

9a

A word also needs to be said about cost. In ARA
Leisure, we said that the agency could not invoke the
discretionary function exception based on budgetary
considerations, but in Kennewick iIrrigation District
v. United States. 880 F.2d 1018 (9th Cir.l989)1 we
said that it could. In this case we also say that it
could. These cases can be
reconciled,' 1140*1140 whether the government can
take cost into account depends on the applicable
statutes, regulations, and policies. In ARA
Leisure, the regulation required the Park Service to
maintain the road width and firmness, not to balance
that goal against what it would cost. In the case at
bar, the statute expressly requires the Corps to
consider the "relation of the ultimate cost of such
work" to the other factors in deciding whether to do
the work. 33 U.S.C. § 541. Where a statute or policy
requires a particular government action, it has no
discretionary function immunity based on its choice
to spend its money doing something else instead. But
where a statute or policy plainly requires the
government to balance expense against other
desiderata, then considering the cost of greater
safety is a discretionary function.
115 F.3d 1415. 1421-22 (9th Cir.1997).
Walters gives us no reason to create a circuit split
with the Ninth Circuit on this issue, other than to
urge us to consider the unfairness of shielding the
BIA from suit for the serious injuries suffered by the
parties in light of allegedly strong evidence the road
was poorly maintained by the BIA. Unfortunately,
the discretionary function exception is not about
fairness^

10a

Application of the exception is often troubling,
because it may be a shield for carelessness and poor
judgment.... Private actors generally must pay for
the harm they do by carelessness. The government's
power to tax enables it, better than any private actor,
to perform its conduct with reasonable care for the
safety of persons and property, and to spread the cost
over all the beneficiaries if its conduct negligently
causes harm. Fairness might seem to suggest that
the government should be liable more broadly than
private actors. But at its root, the discretionary
function exception is about power, not fairness. The
sovereign has, by the exercise of its authority,
reserved to itself the right to act without liability for
misjudgment and carelessness in the formulation of
policy.
Id. at 1422.
Because the applicable regulations expressly
required the BIA to consider the availability of funds
in deciding whether to perform maintenance on its
roads, we conclude the district court correctly held
the discretionary function exception shields the
government from suit in this case. 1^1
III
We affirm the district court's order of dismissal.
COLLOTON, Circuit Judge, concurring in the
judgment.
I am not as confident as my colleagues that we can
uphold the district court's conclusion that this action
is barred by the discretionary function exception of
11a

the Federal Tort Claims Act, 28 U.S.C. § 2680(a).
The discretionary function exception precludes
liability for acts of government officials that "involve
an element of judgment or choice," where the
judgment or choice is "based on considerations of
public policy." United States v. Gaubert, 499 U.S.
315. 322-23. Ill S.Ct. 1267. 113 L.Ed.2d 335
(1991) (internal quotations omitted). Unlike National
Union Fire Insurance v. United States. 115 F.3d
1415 (9th Cir.1997). where the applicable statute
"expressly require[d]" the government "to consider
the relation of the ultimate cost of [the] work to other
factors in deciding 1141*1141 whether to do the
work," id. at 1422 (internal quotation omitted), the
regulation in this case says merely that the
government "shall maintain, or cause to be
maintained" the roads, "subject to the availability of
funds." 25 C.F.R. § 170.6 (2004). Everything the
government does is subject to the availability of
funds. This case thus seems closer to ARA Leisure
Services v. United States. 831 F.2d 193 (9th
Cir. 1987).where the government argued that road
maintenance decisions required consideration of
"funding constraints," id. at 195, and the court
rejected the argument because "[bludgetary
constraints underlie virtually all governmental
activity." Id. at 196. Cf. Aslakson v. United
States. 790 F.2d 688. 693 (8th Cir.l986)("Where the
challenged governmental activity involves safety
considerations under an established policy rather
than the balancing of competing public policy
considerations, the rationale for the exception falls
away and the United States will be held responsible
for the negligence of its employees."). I am doubtful
that the people who determined not to repair the
road in this case were charged with making a policy
12a

decision about the allocation or availability of
government funds.
I concur in the judgment, however, because I believe
the district court correctly dismissed this action
pursuant to the "private analogue requirement" of
the FTCA. The FTCA extends jurisdiction to the
district courts over claims against the United States
for wrongful acts or omissions of government
employees only in circumstances "where the United
States, if aprivate person, would be liable to the
claimant in accordance with the law of the place
where the act or omission occurred." 28 U.S.C. §
1346(b)(1) (emphasis added). The Act requires the
court "to look to the state-law liability of private
entities, not to that of public entities, when assessing
the Government's liability under the FCTA 'in the
performance of activities which private persons do
not perform.’" United States v. Olson. 546 U.S. 43.
126 S.Ct. 510. 512. 163 L.Ed.2d 306
(2005) (quoting Indian Towins Co. v. United
States. 350 U.S. 61. 64, 76 S.Ct. 122. 100 L.Ed. 48
(1955)).
In this case, therefore, the dispositive question is
whether a private entity would be liable to the
plaintiffs if a private party negligently had failed to
eliminate "washboard" conditions in the gravel road
traveled by the plaintiffs. The Supreme Court of
South Dakota provided guidance on this question
in Estate ofShuck v. Perkins County, 577 N.W.2d
584 (S.D.1998). There, a driver of an automobile lost
control of his vehicle due to loose gravel on a road,
and the court held that the defendant county was not
liable for negligence in maintaining the road by
allowing loose gravel to remain on the road. The
13a

court reasoned that "there can be no duty or
negligent breach thereof concerning a condition
which is inherent to that subject matter," and
observed that the plaintiffs cited no authority that
"loose gravel, by itself, is not an inherent part of a
gravel road." Id. at 589. In explaining what it meant
by an "inherent" condition, the court stated that
"[w]hile gravel when initially placed may be
compacted by machinery, the passing of time, traffic,
weather and the elements can result in that
compacted gravel becoming loose. "Id. (emphasis
added).
The holding of Shuck demonstrates that negligent
maintenance resulting in loose gravel cannot give
rise to an action under the FTCA, because a private
party (like a county) has no duty in South Dakota to
prevent the development of such an "inherent"
condition. For the same reason, the failure to prevent
washboard conditions in a gravel road would not give
rise to tort liability for a private party in South
Dakota. There is no dispute that "washboard
conditions" are an inherent condition 1142*1142 of
gravel roads in the same sense that Shuck defined
loose gravel as an inherent condition — that is, while
gravel roads initially may be rendered flat by
machinery, the passing of time, traffic, weather, and
the elements can result in the development of
washboard conditions. The district court remarked
that "washboard conditions on gravel roads are so
obvious that any person driving on a gravel road is
expected to be aware of such conditions and take
precautions when driving on gravel roads." The court
took judicial notice that washboard conditions "are
an inherent part of almost all gravel roads in South
Dakota," and appellants conceded this fact at oral
14a

argument. Accordingly, because a private party
would not be liable in South Dakota for failing to
maintain a gravel road without washboard
. conditions, the United States has not waived
sovereign immunity under the FTCA for such an act
or omission by a government employee.
Ill The Honorable Charles B. Kornmann, United States District
Judge for the District of South Dakota.
I2l Having concluded the district court lacked jurisdiction over
this suit because the discretionary function exception applied,
we have no reason to consider the district court's alternative
holding that the suit was barred by the FTCA's private
analogue requirement.

15a

APPENDIX F
742 F.2d 1141 (1984)
Darryl S. and Arlyne M. LONG, Appellants,
v.
COMMISSIONER OF INTERNAL REVENUE,
Appellee.
No. 84-1347.
United States Court of Appeals, Eighth Circuit.
Submitted July 24, 1984.
Decided September 12, 1984.
Rehearing and Rehearing Denied October 15, 1984.
1142*1142 Darryl S. and Arlyne M. Long, pro se.
Glenn L. Archer, Jr. Asst. Atty. Gen., Michael L.
Paup, Richard Farber, Bruce R. Ellisen, Attys. Tax
Div., Dept, of Justice, Washington, D.C., for appellee.
Before HEANEY, BRIGHT, and ROSS, Circuit
Judges.
Rehearing and Rehearing En Banc Denied October
15, 1984.
PER CURIAM.
Darryl S. and Arlyne M. Long (taxpayers) appeal
from a decision of the United States Tax Court
dismissing their petitions for redetermination of
deficiencies in their income tax and upholding the

16a

Commissioner of Internal Revenue's determination of
deficiencies and tax penalties totalling over $98,000.
We affirm.
In March 1982, the Commissioner issued two notices
of deficiency to taxpayers, covering the years 197880. Taxpayers petitioned the United States Tax
Court for re determination of the deficiencies. The
Commissioner then contacted taxpayers on several
occasions and attempted to work out a stipulation of
facts and documents not in dispute, pursuant to Tax
Court Rule 91. Taxpayers would not cooperate.
On September 19, 1983, the case was called from the
calendar of the Tax Court's trial session at St. Paul,
Minnesota. Taxpayers appeared pro se. No
stipulation was submitted, so the court directed the
parties to meet again and develop a stipulation
before the trial date of September 26, 1983.
Taxpayers did meet with the Commissioner's
attorneys and produced numerous financial records.
Nevertheless, the parties were not able to reach a
stipulation.
At the trial, the Commissioner reviewed taxpayers'
failure to cooperate in reaching a stipulation and
moved for dismissal of the case under Tax Court Rule
123(b). Rule 123(b) provides^
Dismissal- For failure of a petitioner properly to
prosecute or to comply with these Rules or any order
of the Court or for other cause which the Court
deems sufficient, the Court may dismiss a case at
any time and enter a decision against the petitioner.
The Court may, for similar reasons, decide against

17a

any party any issue as to which he has the burden of
proof k ic k
Responding to the Commissioner's motion, taxpayers
argued that they had attempted to develop a
stipulation in their meetings prior to trial.
Taxpayers also argued the merits of their petitions
for redetermination. They claimed that the income in
question was not attributable to them but to a trust
established by taxpayer Darryl Long. It appears that
the sole property of the trust was Darryl Long's labor
and the right to income derived from that labor.
Taxpayers refused to submit the entire trust
indenture as evidence, despite the court's statement
that "nothing has been stipulated from the record
that you have turned over or from any of these
documents, and there is nothing before the court at
the moment upon which the court could make a
decision other than in favor of the
Respondent." 1143*1143 The court then granted the
Commissioner's motion and dismissed the petitions
for redetermination.
In a memorandum issued with its order of dismissal,
the court stated that it was dismissing the petitions
solely because of taxpayers' unreasonable refusal to
cooperate in the preparation of a stipulation.
Dismissal is a harsh remedy but we think it is
justified by the facts of this case. Taxpayers were
persistently resistant to the Commissioner's
attempts to reach a stipulation, and no stipulation
was ever achieved. In addition, the court gave
taxpayers a generous opportunity to state their case
for redetermination of the deficiencies, yet they failed
to produce any admissible evidence in support of
18a

their claims. It appears from the taxpayers'
testimony that this trust it was simply an attempt to
transfer the incidence of taxation away from
taxpayers by an assignment of lifetime services.
In Vnuk v. Commissioner ofInternal Revenue. 621
F.2d 1318 (8th Cir.1980), a panel of this court held
that such a trust does not shift the burden of
taxation.
The court's decision to dismiss the petitions because
of taxpayers' failure to properly prosecute was a
proper exercise of its discretion. The decision of the
tax court is affirmed.

19a

APPENDIX G
UNITED STATES TAX COURT
WASHINGTON, DC 20217
)
BRAD S. FRANCIS &
CHRISTINE C. FRANCIS,
)
Petitioners, )
)

) Docket No. 9801-16

v.

)
)
)
)

COMMISSIONER OF
INTERNAL REVENUE,

Respondent )
ORDER OF DISMISSAL AND DECISION
This case was called from the calendar for the
trial session of the Court in Kansas City, Missouri,
on February 5, 2018. There was no appearance by or
on the behalf of petitioners. Respondent filed a
Motion to Dismiss for Lack of Prosecution, which the
Court took under advisement. The Court issued an
Order to Show Cause, directing petitioners to show
cause in writing, on or before March 7, 2018, why
respondent's Motion to Dismiss for Lack of
Prosecution should not be granted. To date,
petitioners have failed to file a response to the Order
to Show Cause. Upon due consideration, it is
ORDERED that the Order to Show Cause, dated
February 5, 2018, is hereby made absolute. It is
further ORDERED that respondent's Motion to
Dismiss for Lack of Prosecution filed February 5,
2018, is granted, and this case is dismissed for lack

20a

of prosecution. It is further ORDERED AND
DECIDED that there is a deficiency in tax due from
petitioners as follows:
Year

Deficiency

2013

$32,520.00

Addition to Tax/Penaltv
I.R.C. 56662(a)
$0.00

SERVED Apr 13 2018
Respondent concedes the accuracyrelated
penalty in the amount of $1,418.20 for the taxable
year 2013 as set forth in the notice of deficiency.
(Signed) L. Paige Marvel
Chief Judge
ENTERED: APR 13 2018

21a

i

APPENDIX H
US TAX COURT
RECEIVED

70
RMM

US TAX COURT
FILED
DEC 11 2017

DEC 11 2017

BRAD S. FRANCIS & CHRISTINE C. FRANCIS,
Petitioners,
PAPER FILED

Docket No.

v.

9801-16

COMMISSIONER OF INTERNAL REVENUE,
Respondent

PETITIONERS' NOTICE TO THE COURT OF PETITIONERS'
INTENTION TO PROTECT PERSONAL JURISDICTION BY NON­
PARTICIPATION IN DISCOVERY AND SUBSEQUENT PHASES OF
ACTION

CERTIFICATE OF SERVICE

22a

:

A«j^rancis v. Commissioner

Docket No. 9801-16

UNITED STATES $
TAX COURT
UNITED
COURT
ZOUDEC 11 AH 10= 45

BRAD STEPHEN FRANCIS
CHRISTINE CAROL FRANCIS

BYC

)
OEPUTY CU.ERK

Petitioner

)
)
)

) Docket No. 9801-16

V. '

COMMISSIONER OF INTERNAL REVENUE.
Respondent

)
)
)
)
)

NOTICE TO THE COURT
OF PETITIONERS’ INTENTION TO PROTECT PERSONAL
JURISDICTION BY NON-PARTICIPATION IN DISCOVERY AND
SUBSEQUENT PHASES OF ACTION

Petitioners’ respectfully declare that they have exhausted all attempts to directly extract themselves from United
States Tax Court Jurisdiction by use of United States Tax Court processes and procedures. As pro se litigants we
have done our best to show that the United States Tax Court was utilizing ablotice ofDeficiency brought by fraud
and rc-determining the deficiency after having usurped jurisdiction.

In order to save all those involved valuable resources of time and money we are hereby - and respectfully declaring our intention to fight this action within the venue of the 8th Circuit Court of Appeals and to protect our
personal jurisdiction by respectfully refusing to participate in formal Discovery and subsequent Tax Court
procedures and processes.

-1-

23a

TEXT OF TAX COURT DOCKET DOCUMENT 70
“Petitioners’ respectfully declare that they have
exhausted all attempts to directly extract
themselves from United States Tax Court
Jurisdiction by use of United States Tax Court
processes and procedures. As pro se litigants we
have done our best to show that the United
States Tax Court was utilizing a Notice of
Deficiency brought by fraud and re-determining
the deficiency after having usurped jurisdiction.
In order to save all those involved valuable
resources of time and money we are hereby - and
respectfully — declaring our intention to fight
this action with the venue of the 8th Circuit
Court of Appeals and to protect our personal
jurisdiction by respectfully refusing to
participate in formal Discovery and subsequent
Tax Court procedures and processes.”

24a

Francis v. Commissioner

Docket No. 9801-16
VERIFICATION

Under Federal Rule of Civil Procedure 11, by signing below, I certify to the best of my knowledge, information, and
belief that this motion: (1) is not being presented for an improper purpose, such as to harass, cause unnecessary
delay, or needlessly increase the cost of litigation; (2) is support by existing law or by a non-frivolous argument for
extending, modifying, or reversing existing law; (3) the factual contentions have evidentiary support or, if
specifically so identified, will likely have evidentiary support after a reasonable opportunity for further investigation
or discovery; and (4) the motion otherwise complies with the requirements of Tax Court Rule 50.

Furthermore, the undersigned pro sc Petitioners know the contents of the motion; and that the information contained
therein is true to the best of their knowledge and belief; and they do freely sign under the penalties ofpeijury.

And, Petitioners have mailed a copy of this motion to Respondent, attention Ms. Joline M. Wang, Internal Revenue
Service, Suite 301,2345 Grand Boulevard, Kansas City, MO 64108-2625, under United States Postal Service
Certified Mail Article #7017 1450 0000 2512 9585.
Respectfully submitted,
Date:.

US

December 3. ffoW

BjpdS. Franck/
rro Sc Petitioner
9704 North Holmes Street
Kansas City, MO 64155-2098
Mobile: (816)812-3600

By:.
Christine C. Francis
Pro Se Petitioner
9704 North Holmes Street
Kansas City, MO 64155-2098
Mobile: (816)812-3600

-2-

25a

APPENDIX I
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No. 17-3679

Brad S. Francis; Christine C. Francis
Appellants
v.
Commissioner of Internal Revenue
Appellee

Appeal from The United States Tax Court
(009801-16)
JUDGMENT
Before LOKEN, BENTON, and ERICKSON, Circuit Judges.
The motion for leave to file out of time for good cause is
denied.
The motion of appellee for dismissal of this appeal is
granted. The appeal is hereby dismissed. See Eighth
Circuit Rule 47A(b).
January 29, 2018
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

26a

APPENDIX J
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-3679
Brad S. Francis and Christine C. Francis
Appellants
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
(009801-16)

ORDER
A petition for rehearing has been filed by
Appellants in the above case. The court requests a
response to the jurisdictional issues in the petition.
The response is limited to 3900 words, and must
contain a word count certificate. The response should be
filed electronically by February 23, 2018.
February 13, 2018
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans
27a

APPENDIX K
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-3679
Brad S. Francis and Christine C. Francis
Appellants
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
(009801-16)

ORDER
The petition for rehearing by the panel is denied.
April 02, 2018

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

28a

APPENDIX L
Deficiency Procedures
26 U.S.C. § 6211 et seq
§ 6211. Definition of a deficiency
(a) In general For purposes of this title in the case of
income, estate, and gift taxes imposed by subtitles A
and B and excise taxes imposed by chapters 41, 42,
43, and 44 the term “deficiency” means the amount
by which the tax imposed by subtitle A or B, or
chapter 41, 42, 43, or 44 exceeds the excess of— (l)
the sum of (A) the amount shown as the tax by the
taxpayer upon his return, if a return was made by
the taxpayer and an amount was shown as the tax by
the taxpayer thereon, plus (B) the amounts
previously assessed (or collected without assessment)
as a deficiency, over— (2) the amount of rebates, as
defined in subsection (b)(2), made.
(b) Rules for application of subsection (a) For
purposes of this section— (l) The tax imposed by
subtitle A and the tax shown on the return shall both
be determined without regard to payments on
account of estimated tax, without regard to the credit
under section 31, without regard to the credit under
section 33, and without regard to any credits
resulting from the collection of amounts assessed
under section 6851 or 6852 (relating to termination
assessments). (2) The term “rebate” means so much
of an abatement, credit, refund, or other repayment,
as was made on the ground that the tax imposed by
subtitle A or B or chapter 41, 42, 43, or 44 was less
than the excess of the amount specified in subsection
(a)(l) over the rebates previously made. (3) The
29a

computation by the Secretary, pursuant to section
6014, of the tax imposed by § 6211 TITLE 26—
INTERNAL REVENUE CODE Page 3238 chapter 1
shall be considered as having been made by the
taxpayer and the tax so computed considered as
shown by the taxpayer upon his return. (4) For
purposes of subsection (a)— (A) any excess of the
sum of the credits allowable under sections 24(d),
25A by reason of subsection (i)(6) thereof, 32, 34, 35,
36, 36A, 36B, 36C, 53(e), 168(k)(4), 6428, and 6431
over the tax imposed by subtitle A (determined
without regard to such credits), and (B) any excess of
the sum of such credits as shown by the taxpayer on
his return over the amount shown as the tax by the
taxpayer on such return (determined without regard
to such credits), shall be taken into account as
negative amounts of tax. ie ie
§ 6212. Notice of deficiency
(a) In general If the Secretary determines that there
is a deficiency in respect of any tax imposed by
subtitles A or B or chapter 41, 42, 43, or 44 he is
authorized to send notice of such deficiency to the
taxpayer by certified mail or registered mail. Such
notice shall include a notice to the taxpayer of the
taxpayer’s right to contact a local § 6212 TITLE 26—
INTERNAL REVENUE CODE Page 3240 office of
the taxpayer advocate and the location and phone
number of the appropriate office.
(b) Address for notice of deficiency (l) Income and
gift taxes and certain excise taxes In the absence of
notice to the Secretary under section 6903 of the
existence of a fiduciary relationship, notice of a
deficiency in respect of a tax imposed by subtitle A,
30a

chapter 12, chapter 41, chapter 42, chapter 43, or
chapter 44 if mailed to the taxpayer at his last
known address, shall be sufficient for purposes of
subtitle A, chapter 12, chapter 41, chapter 42,
chapter 43, chapter 44, and this chapter even if such
taxpayer is deceased, or is under a legal disability,
or, in the case of a corporation, has terminated its
existence. (2) Joint income tax return In the case of a
joint income tax return filed by husband and wife,
such notice of deficiency may be a single joint notice,
except that if the Secretary has been notified by
either spouse that separate residences have been
established, then, in lieu of the single joint notice, a
duplicate original of the joint notice shall be sent by
certified mail or registered mail to each spouse at his
★ 1c rk
last known address.
§ 6213. Restrictions applicable to deficiencies;
petition to Tax Court
(a) Time for fifing petition and restriction on
assessment Within 90 days, or 150 days if the notice
is addressed to a person outside the United States,
after the notice of deficiency authorized in section
6212 is mailed (not counting Saturday, Sunday, or a
legal holiday in the District of Columbia as the last
day), the taxpayer may file a petition with the Tax
Court for a re determination of the deficiency. Except
as otherwise provided in section 6851, 6852, or 6861
no assessment of a deficiency in respect of any tax
imposed by subtitle A, or B, chapter 41, 42, 43, or 44
and no levy or proceeding in court for its collection
shall be made, begun, or prosecuted until such notice
has been mailed to the taxpayer, nor until the
expiration of such 90-day or 150-day period, as the
31a

case may be, nor, if a petition has been filed with the
Tax Court, until the decision of the Tax Court has
become final. Notwithstanding the provisions of
section 7421(a), the making of such assessment or
the beginning of such proceeding or levy during the
time such prohibition is in force may be enjoined by a
proceeding in the proper court, including the Tax
Court, and a refund may be ordered by such court of
any amount collected within the period during which
the Secretary is prohibited from collecting by levy or
through a proceeding in court under the provisions of
this subsection. The Tax Court shall have no
jurisdiction to enjoin any action or proceeding or
order any refund under this subsection unless a
timely petition for a redetermination of the
deficiency has been filed and then only in respect of
the deficiency that is the subject of such petition.
Any petition filed with the Tax Court on or before the
last date specified for fifing such petition by the
Secretary in the notice of deficiency shall be treated
as timely filed.
(b) Exceptions to restrictions on assessment
(l) Assessments arising out of mathematical or
clerical errors If the taxpayer is notified that, on
account of a mathematical or clerical error appearing
on the return, an amount of tax in excess of that
shown on the return is due, and that an assessment
of the tax has been or will be made on the basis of
what would have been the correct amount of tax but
for the mathematical or clerical error, such notice
shall not be considered as a notice of deficiency for
the purposes of subsection (a) (prohibiting
assessment and collection until notice of the
deficiency has been mailed), or of section 6212(c)(1)
(restricting further deficiency letters), or of section
32a

6512(a) (prohibiting credits or refunds after petition
to the Tax Court), and the taxpayer shall have no
right to file a petition with the Tax Court based on
such notice, nor shall such assessment or collection
be prohibited by the provisions of subsection (a) of
this section. Each notice under this paragraph shall
set forth the error alleged and an explanation
thereof. (2) Abatement of assessment of
mathematical or clerical errors (A) Request for
abatement Notwithstanding section 6404(b), a
taxpayer may file with the Secretary within 60 days
after notice is sent under paragraph (l) a request for
an abatement of any assessment specified in such
notice, and upon receipt of such request, the
Secretary shall abate the assessment. Any
reassessment of the tax with respect to which an
abatement is made under this subparagraph shall be
subject to the deficiency procedures prescribed by
this subchapter. (B) Stay of collection In the case of
any assessment referred to in paragraph (l),
notwithstanding paragraph (l), no levy or proceeding
in court for the collection of such assessment shall be ,,
made, begun, or prosecuted during the period in
which such assessment may be abated under this *
paragraph. (3) Assessments arising out of tentative
carryback or refund adjustments If the Secretary
determines that the amount applied, credited, or
refunded under section 6411 is in excess of the
overassessment attributable to the carryback or the
amount described in section 1341(b)(1) with respect
to which such amount was applied, credited, or
refunded, he may assess without regard to the
provisions of paragraph (2) the amount of the excess
as a deficiency as if it were due to a mathematical or
clerical error appearing on the return. (4)
Assessment of amount paid Any amount paid as a
33a

tax or in respect of a tax may be assessed upon the
receipt of such payment notwithstanding the
provisions of subsection (a). In any case where such
amount is paid after the mailing of a notice of
deficiency under section 6212, such payment shall
not deprive the Tax Court of jurisdiction over such
deficiency determined under section 6211 without
regard to such assessment. (5) Certain orders of
criminal restitution If the taxpayer is notified that
an assessment has been or will be made pursuant to
section 6201(a)(4)— (A) such notice shall not be
considered as a notice of deficiency for the purposes
of subsection (a) (prohibiting assessment and
collection until notice of the deficiency has been
mailed), section 6212(c)(1) (restricting further
deficiency letters), or section 6512(a) (prohibiting
credits or refunds after petition to the Tax Court),
and (B) subsection (a) shall not apply with respect to
the amount of such assessment.
(c) Failure to file petition.
If the taxpayer does not file a petition with the Tax
Court within the time prescribed in subsection (a),
the deficiency, notice of which has been mailed to the
taxpayer, shall be assessed, and shall be paid upon
notice and demand from the Secretary.
(d) Waiver of restrictions.
The taxpayer shall at any time (whether or not a
notice of deficiency has been issued) have the right,
by a signed notice in writing filed with the Secretary,
to waive the restrictions provided in subsection (a) on
the assessment and collection of the whole or any
part of the deficiency.

34a

(e) Suspension of filing period for certain excise taxes
The running of the time prescribed by subsection (a)
for filing a petition in the Tax Court with respect to
the taxes imposed by section 4941 (relating to taxes
on self-dealing), 4942 (relating to taxes on failure to
distribute income), 4943 (relating to taxes on excess
business holdings), 4944 (relating to investments
which jeopardize charitable purpose), 4945 (relating
to taxes on taxable expenditures), 4951 (relating to
taxes on self-dealing), or 4952 (relating to taxes on
taxable expenditures), 4955 (relating to taxes on
political expenditures), 4958 (relating to private
excess benefit), 4971 (relating to excise taxes on
failure to meet minimum funding standard), 4975
(relating to excise taxes on prohibited transactions)
shall be suspended for any period during which the
Secretary has extended the time allowed for making
correction under section 4963(e).
CD Coordination with title 11
(l) Suspension of running of period for filing petition
in title 11 cases In any case under title 11 of the
United States Code, the running of the time
prescribed by subsection (a) for filing a petition in
the Tax Court with respect to any deficiency shall be
suspended for the period during which the debtor is
prohibited by reason of such case from fifing a
petition in the Tax Court with respect to such
deficiency, and for 60 days thereafter. (2) Certain
action not taken into account For purposes of the
second and third sentences of subsection (a), the
fifing of a proof of claim or request for payment (or
the taking of any other action) in a case under title
11 of the United States Code shall not be treated as
action prohibited by such second sentence.

35a

(g) Definitions
For purposes of this section— (l) Return The term
“return” includes any return, statement, schedule, or
list, and any amendment or supplement thereto, filed
with respect to any tax imposed by subtitle A or B, or
chapter 41, 42, 43, or 44. (2) Mathematical or clerical
error The term “mathematical or clerical error”
means— (A) an error in addition, subtraction,
multiplication, or division shown on any return, (B)
an incorrect use of any table provided by the Internal
Revenue Service with respect to any return if such
incorrect use is apparent from the existence of other
information on the return, (C) an entry on a return of
an item which is inconsistent with another entry of
the same or another item on such return, (D) an
omission of information which is required to be
supplied on the return to substantiate an entry on
the return, (E) an entry on a return of a deduction or
credit in an amount which exceeds a statutory limit
imposed by subtitle A or B, or chapter 41, 42, 43, or
44, if such limit is expressed— (i) as a specified
monetary amount, or (ii) as a percentage, ratio, or
fraction, and if the items entering into the
application of such limit appear on such return, (F)
an omission of a correct taxpayer identification
number required under section 32 (relating to the
earned income credit) to be included on a return, (G)
an entry on a return claiming the credit under
section 32 with respect to net earnings from selfemployment described in section 32(c)(2)(A) to the
extent the tax imposed by section 1401 (relating to
self-employment tax) on such net earnings has not
been paid, (H) an omission of a correct TIN required
under section 21 (relating to expenses for household
and dependent care services necessary for gainful
employment) or section 151 (relating to allowance of
36a

deductions for personal exemptions), (I) an omission
of a correct TIN required under section 24(e)
(relating to child tax credit) to be included on a
return, (J) an omission of a correct TIN required
under section 25A(g)(l) (relating to higher education
tuition and related expenses) to be included on a
return, (K) an omission of information required by
section 32(k)(2) (relating to taxpayers making
improper prior claims of earned income credit), (L)
the inclusion on a return of a TIN required to be
included on the return under section 21, 24, 32, or
6428 if— (i) such TIN is of an individual whose age
affects the amount of the credit under such section,
and (ii) the computation of the credit on the return
reflects the treatment of such individual as being of
an age different from the individual’s age based on
such TIN, (M) the entry on the return claiming the
credit under section 32 with respect to a child if,
according to the Federal Case Registry of Child
Support Orders established under section 453(h) of
the Social Security Act, the taxpayer is a
noncustodial parent of such child, (N) an omission of
the reduction required under section 36A(c) with
respect to the credit allowed under section 36A or an
omission of the correct social security account
number required under section 36A(d)(l)(B), (O) an
omission of any increase required under section 36(f)
with respect to the recapture of a credit allowed
under section 36, and (P) an entry on a return
claiming the credit under section 36 if— (i) the
Secretary obtains information from the person
issuing the TIN of the taxpayer that indicates that
the taxpayer does not meet the age requirement of
section 36(b)(4), (ii) information provided to the
Secretary by the taxpayer on an income tax return
for at least one of the 2 preceding taxable years is
37a

inconsistent with eligibility for such credit, or (iii) the
taxpayer fails to attach to the return the form
described in section 36(d)(4). A taxpayer shall be
treated as having omitted a correct TIN for purposes
of the preceding sentence if information provided by
the taxpayer on the return with respect to the
individual whose TIN was provided differs from the
information the Secretary obtains from the person
issuing the TIN.
§ 6214. Determinations by Tax Court
(a) Jurisdiction as to increase of deficiency,
additional amounts, or additions to the tax Except as
provided by section 7463, the Tax Court shall have
jurisdiction to re-determine the correct amount of the
deficiency even if the amount so re-determined is
greater than the amount of the deficiency, notice of
which has been mailed to the taxpayer, and to
determine whether any additional amount, or any
addition to the tax should be assessed, if claim
therefor is asserted by the Secretary at or before the
hearing or a rehearing.
(b) Jurisdiction over other years and quarters The
Tax Court in re-determining a deficiency of income
tax for any taxable year or of gift tax for any
calendar year or calendar quarter shall consider such
. facts with relation to the taxes for other years or
calendar quarters as may be necessary correctly to
re-determine the amount of such deficiency, but in so
doing shall have no jurisdiction to determine
whether or not the tax for any other year or calendar
quarter has been overpaid or underpaid.
Notwithstanding the preceding sentence, the Tax
38a

Court may apply the doctrine of equitable
recoupment to the same extent that it is available in
civil tax cases before the district courts of the United
States and the United States Court of Federal
Claims.
(c) Taxes imposed by section 507 or chapter 41, 42,
43, or 44 The Tax Court, in re determining a
deficiency of any tax imposed by section 507 or
chapter 41, 42, 43, or 44 for any period, act, or failure
to act, shall consider such facts with relation to the
taxes under chapter 41, 42, 43, or 44 for other
periods, acts, or failures to act as may be necessary
correctly to redetermine the amount of such
deficiency, but in so doing shall have no jurisdiction
to determine whether or not the taxes under chapter
41, 42, 43, or 44 for any other period, act, or failure to
act have been overpaid or underpaid. The Tax Court,
in redetermining a deficiency of any second tier tax
(as defined in section 4963(b)), shall make a
determination with respect to whether the taxable
event has been corrected.
(d) Final decisions of Tax Court For purposes of this
chapter, chapter 41, 42, 43, or 44, and subtitles A or
B the date on which a decision of the Tax Court
becomes final shall be determined according to the
provisions of section 7481.

39a

